2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

C@OCKLE

|

E-Mail Address:

Legal Briefs

Est. 1923 contact@cocklelegalbriefs.com
Web Site
www.cocklelegalbriefs.com
No. 19-292
ROXANNE TORRES,
Petitioner,
v.

JANICE MADRID AND RICHARD WILLIAMSON,

Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in

the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),

being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,

and this brief contains 9000 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 12th day of November, 2019.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

bez, C blll  Qudiawh, hele

Notary Public Affiant

 

38858
